IN THE SUPREME COURT OF THE UNITED STATES
No. 19-251

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY
GENERAL OF CALIFORNIA
Respondent,

CERTIFICATE OF WORD COUNT

I certify that the accompanying Brief of Amicus Curaie, which was prepared
using Century Schoolbook 12-point typeface, contains 3,649 words, excluding
the parts of the document that are exempted by Rule 33.1(d). This certificate
was prepared in reliance on the word-count function of the wordprocessing
system (Microsoft Word) used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 24, 2019.

  

Counsel of Record

THE BUCKEYE INSTITUTE

88 East Broad Street

Suite 1300

Columbus, OH 43215

(614) 224-4422
robert@buckeyeinstitute.org
